                                                     National Railroad Passenger Corporation
                                                     Office of Inspector General
                                                     10 G Street N.E.
                                                     Washington, DC 20002




                    OVERTIME ABUSE AT THE LOS ANGELES YARD
                               FEBRUARY 27, 2014
                               CASE OIG-I-2014-504

OI conducted an investigation into an allegation that employees of the Los Angeles yard were
receiving overtime pay for overtime that was not worked. We selected for review, three
employees of the Los Angeles yard. We found that these three employees left the yard
approximately 15 minutes before the end of their assigned shifts. It was determined that
supervisors allowed yard engineers and conductors twenty minutes of “tie-up” time to perform
various tasks. With more than 30 employees in these work assignments, the time lost by
employees leaving the premises and not using the time for “tie up” purposes could potentially
be substantial. The matter was brought to management’s attention. Management reaffirmed to
all crew members that they were not to leave Amtrak property prior to their authorized end
time.
